“ 5 954
IN THE
SUPREME COURT OF THE UNITED STATES

■

i

•

I

r'T

n

S~"

I
I

;
I

i;

ll

MERYL MCDONALD, Petitioner
—V.—
STATE OF FLORIDA, Respondent

ON PETITON FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF FLORIDA

PETITION FOR A WRIT OF CERTIORARI

Meryl McDonald DC#180399
Union Correctional Institution
P.O. Box 1000
Raiford, Florida 32083

CAPITAL CASE
OUESTION(S) PRESENTED
The question presented in this case is whether rule 3.851(b)(6)&(i) found in
the Florida Rules of Criminal Procedure is unconstitutional and violates both the
Equal Protection and Due Process clauses of the Fourteenth Amendment where it
prohibits death sentenced inmates from submitting any filings pro se without
waiving postconviction counsel and waiving all postconviction proceedings?

i

LIST OF PARTIES TO THE PROCEEDING
AND RULE 29.6 DISCLOSURE
The caption of this case contains the names of all parties to this proceeding,
both here and before the Supreme Court of Florida. No corporations or parent
corporations are involved in this matter.
TABLE OF CONTENTS
Pagets)
QUESTION PRESENTED
.

l

PARTIES TO THE PROCEEDING AND RULE 29.6 DISCLOSURE
INDEX TO APPENDICES

li

in

TABLE OF AUTHORITIES

iv-v

OPINIONS BELOW

1

BASIS FOR INVOKING JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3
4-8

STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT

9-17

CONCLUSION

17

CERTIFICATE OF SERVICE

18

ii

INDEX TO APPENDICES
APPENDIX-A- Florida Supreme Court order of dismissal

8

APPENDIX-B- Motion to Declare Rule 3.851(b)(6)&(i) of the
Florida Rules of Criminal Procedure unconstitutional------------

6

APPENDIX-C- Florida Supreme Court order directing briefs be filed

6

APPENDIX-D- Brief of Jonathan Hackworth, Counsel for Petitioner

7

APPENDIX-E- Brief for the State

7

APPENDIX-F- McDonalds Supplemental Brief------------ -----------------

7

APPENDIX-G- McDonald’s Motion for Rehearing
--------<r--r——
oMe* si^utK Motion $ok UVieAkiv^

8

APPENDIX-H- Motion to Compel Grand Jury Testimony.......................

5

iii

TABLE OF AUTHORITIES CITED
Page(s)

Cases
Brady v. Maryland, 373 U.S. 83, 87, 10 L. Ed. 2d 215,
83 S.Ct. 1194(1963)-------------- ------------------------

5

Bullington v. Missouri, 451 U.S. 430, 432 (1981)

10

Downs v. McNeil, 520 F.3d 1311(11th cir. 2008)

16

Faretta v. California, 422 U.S. 806, 45 L. Ed. 2d 562,
95 S.Ct. 2525 (1975)....... .........................-...............

8

Giglio v. United States, 405 U.S. 150, 31 L. Ed. 2d 104,
92 S. Ct. 763 (1972)........ —-------------------------------

5

Gonzalez v. State, 990 So. 2d 1017, 1034 (Fla. 2008)
Gordon v. State, 75 So.3d 200 (Fla. 2011)

16
6, 7,11

Gore v. State, 24 So. 3d 1, 16 (Fla. 2009)

16

Graham v. State, 372 So. 2d 1363 (Fla. 1979)

14

Hankerson v. North Carolina, 432 U.S. 233, 240 (1977)

10

Holland v. Florida,
560 U.S. 631, 130 S.Ct. 2549, 177 L.Ed.2d 130 (2010)

15, 16

Houston v. Lack, 487 U.S. 266, 108 S. Ct. 2379, 2382,
101 L. Ed. 2d 245(1988)............................... -.....

18

Kokal v. State, 901 So. 2d 766, 777 (Fla. 2005)

16

Lane v. Brown, 372 US 477, 9 L Ed 2d 892, 83 SCT 768 (1963)

13

Martel v. Clair,

565 US 648, 132 S.Ct. 1276, 182 L Ed 135 (2012)
iv

15,16

Martinez v. Court of Appeal of California, 528 U.S. 152, 163 (2000).

10

Martinez v. Ryan, 132 S.Ct. 1309 (2012)

16

McDonald v. State, 743 So.2d 501 (Fla. 1999)

4

McDonald v. State, 952 So.2d 484 (Fla. 2006)

4

McDonald v. McNeil, 991 So.2d 387 (Fla. 2008) [Table]

4

McDonald v. State, 45 FLW SI73 (Fla. June 4th 2020)—

8

Nelson v. State, 274 So. 2d 256 (Fla. 4th DCA1973)

8

Oregon v. Mathiason, 429 U.S. 492, 493 (1977)

10

Ross v. Moffitt, 417 US 600, 41 L Ed 2d 341, 94 SCT 2437 (1974)

13

TABLE OF AUTHORITIES CITED CONTINUED
Tompkins v. State, 994 So. 2d 1072, 1088 (Fla. 2008)

16

Waterhouse v. State, 792 So. 2d 1176, 1193 (Fla. 2001)

16

STATUTES AND RULES
Florida Rule Criminal Procedure, Rule 3.851(b)(6)&(I)

passim

OTHER
Fla. Const. Art. 1 §2

12

Fla. Const. Art 1 §9

12

Fla. Const. Art. 1 §21

12

14th Amendment U.S. Const

12

28 U.S.C. § 1257(a)

2

V

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the
judgment of the Florida Supreme Court in this case.

OPINIONS BELOW
[ ] For cases from Federal Courts: Not applicable
[ ] For cases from State Courts:
The opinion of the Florida Supreme Court, which is the highest state court to
review the merits of this case appears at Appendix “A” to the petition and is
unreported.

l

BASIS FOR INVOKING JURISDICTION
The judgment of the Florida Supreme Court which is the subject of this
petition was entered on May 20th 2020. A petition for writ of certiorari to review
that judgment is timely filed within 90 days after its entry. Supreme Court Rule
iL

13.1, however, pursuant to the Supreme Court’s order dated March 19 2020; the
time to file any petition for a writ of certiorari was extended to 150 days from the
date of the lower court judgment. Therefore, the Court’s jurisdiction to review the
question presented exists and is invoked under 28 U.S.C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The question presented involves the Equal Protection and Due Process
Clauses of the Fourteenth Amendment of the United States Constitution which
provides in relevant part: “...No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United States; nor shall any
State deprive any person of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal protection of the laws.”
Florida Rule of Criminal Procedure, Rule 3.851(b)(6) which states in
relevant part: “A defendant who has been sentenced to death may not represent
himself or herself in a capital postconviction proceeding in state court. The only
basis for a defendant to seek to dismiss postconviction counsel in state court shall
be pursuant to statute due to actual conflict or subdivision (i) of this rule.”
Florida Rule of Criminal Procedure, Rule 3.85l(i) Dismissal of
Postconviction Proceedings which states in relevant part: “This subdivision applies
only when a defendant seeks both to dismiss pending postconviction proceedings
and to discharge collateral counsel.”
These

subdivisions,

3.85 l(b)(6)&(i),

read

together

constitute

an

unconstitutional infringement upon the rights of a Florida criminal defendant who
has been sentenced to death.

3

STATEMENT OF THE CASE
Meryl McDonald is a Florida prisoner under sentence of death. The Florida
Supreme Court affirmed McDonald’s conviction and sentence of death. McDonald
v. State, 743 So.2d 501 (Fla. 1999). In his initial post-conviction challenge, the
lower court permitted McDonald to act pro se with Capital Collateral Regional
Counsel-Middle (CCRC-Middle) as standby counsel. The Florida Supreme Court
affirmed the denial of relief, and the Supreme Court also denied McDonald’s
request to represent himself on appeal. McDonald v. State, 952 So.2d 484 (Fla.
2006).
In 2008, McDonald filed a pro se Habeas/All Writs petition in the Florida
Supreme Court seeking a belated, successive post-conviction appeal to raise
additional claims which were not presented on his original post-conviction appeal,
which the Supreme Court denied. McDonald v. McNeil, 991 So.2d 387 (Fla. 2008)
[Table].
In 2015, McDonald, thru Capital Collateral Regional Counsel-South
(CCRC-South) filed a pro se Amended Fourth Successive Motion for
Postconviction Relief pursuant to Rule 3.851 to supply additional facts and
argument based on the 2014 and 2015 letter issued by the United States
Department of Justice that criticized the testimony of the alleged expert from the
FBI’s hair and comparison analysis section/unit. The pro se motion asserts that the
4

Newly Discovered Evidence was not limited to only the June 9th 1994 report and
the FBI’s trial testimony, but extends to the FBI’s hair analysis the State presented
in a sworn arrest affidavit; and submitted to the Grand Jury to secure a capital
murder indictment against McDonald-which maintained that McDonald was
denied due process due to violations of Brady and Giglio] based on the knowing
use of falsified hair and fiber analysis and of suppressing material facts.
The trial court denied the pro se motion based on the unconstitutional
provisions found in rule 3.851(b)(6), which disallows a criminal defendant
sentenced to death from representing himself/herself in any postconviction
proceeding.
It should also be noted that court appointed counsel, Jonathan Hackworth, on
April 14 2020, who submitted in the lower court a Motion to Compel Grand Jury
Testimony. (See Appendix-H) McDonald had previously urged counsel to file said
motion months prior to the lower court denying the fourth successive motion for
postconviction relief.
McDonald has also previously attempted to raise the same viable claims thru
his court appointed counsel, Jonathan Hackworth, who steadfastly refused to raise
any claims that could have and should have been raised.

Brady v. Maryland, 373 U.S. 83, 87, 10 L. Ed. 2d 215, 83 S. Ct. 1194 (1963)
Giglio v. United States, 405 U.S. 150, 31 L. Ed. 2d 104, 92 S. Ct. 763 (1972)

5

McDonald then moved the court to discharge counsel which the court
denied. It should also be noted that after the lower court denied the fourth
successive motion for post-conviction relief, McDonald submitted with the Florida
Supreme Court a Motion to Discharge Post-conviction counsel because of an
irreconcilable conflict and counsels failure to assist McDonald and act as his legal
agent and a Motion to Appoint Conflict-Free Counsel. McDonald also filed a
Motion to Strike Counsel’s Initial Brief. The Florida Supreme Court again
ultimately denied all pro se filings.
During the pendency of the fourth successive 3.851 appeal, McDonald, on
November 25 2019, submitted in the Florida Supreme Court a Motion to Declare
Rule 3.851(b)(6)&(i) of the Florida Rules of Criminal Procedure unconstitutional.
(See Appendix-B)
On December 19

2019, the Florida Supreme Court issued an order

directing the State of Florida and Counsel for the Appellant, Jonathan Hackworth,
to file Briefs with the Court, addressing the Constitutionality of rule
3.851 (b)(6)&(i) and whether McDonald had a Constitutional right to represent
himself in a postconviction proceeding, such that the Court should reconsider
Gordon v. State, 75 So.3d 200 (Fla. 2011)(Death sentenced defendants pro se
filings stricken as unauthorized impermissible pro se filings and dismissed). The

6

Supreme Court further authorized that McDonald submit an Supplemental Brief.
(See Appendix-C)
On January 8th 2020, counsel for the appellant, Jonathan Hackworth, filed
his brief, in which counsel acknowledged that rule 3.851(b)(6)&(i) was
unconstitutional and indicated that the defendant had a constitutional right to
represent himself and that the Court should reconsider its holding in Gordon v.
State. Counsel further stated that this right should come with the stipulation that
there be standby counsel appointed in such circumstances where a death sentenced
wishes to represent himself. (See Appendix-D)
On the same day, the State filed their brief. Although the State remained
silent in regards to the Constitutionality issue of the rule itself, the State urged the
Court to reconsider the holding in Gordon. The State argued that a competent
defendant may waive postconviction representation and collateral counsel which
“has no duty or right to represent a death row inmate without that inmate’s
permission.” (See Appendix-E)
On January 17th 2020, McDonald filed his Supplemental Brief and on
January 30

2020, McDonald submitted a “Request for Leave” to submit an

“Addendum to Appellants Supplemental Brief’ See Appendix , F .J On February
6 2020, the Court granted McDonald’s Motion Requesting Leave to submit the
/ V

Addendum. (See Appendix- /)
7

On May 20th 2020, the Florida Supreme Court dismissed McDonalds motion
to declare rule 3.851(b)(6)&(i) unconstitutional. In so doing, the Court stated that
McDonald in his Supplemental Briefing advocated for impermissible “Hybrid
Representation” (See Appendix-A). However, this was a misrepresentation of the
facts; the one advocating for the “Hybrid Representation” was Jonathan Hackworth
in his brief, not McDonald. A casual reading of McDonalds Motion, Supplemental
Brief and the Addendum filed by McDonald makes no mention of “Hybrid
Representation.” In fact, McDonald had requested that a Nelson!Faretta type
procedure be incorporated into the rule in order to protect a death sentenced
defendants rights.
Petitioner filed a Motion for Rehearing and on June 25 2020, the Florida
Supreme Court struck McDonalds Motion for Rehearing as an “Impermissible pro
se filing” (See Appendix-G)
The Florida Supreme Court denied McDonalds appeal to the fourth
successive motion to vacate on June 4th 2020, and the mandate issued on June 25th
2020. See McDonald v. State, 45 FLW SI73 (Fla. June 4, 2020)
McDonald at present is filing a pro se Motion in the trial court pursuant to
Farreta v. California, 422 U.S 806 (1975). That motion is premised upon abuse of

Nelson v. State, 274 So. 2d 256 (Fla. 4th DC A1973,)/ Faretta v. California, 422 U.S. 806, 45 L. Ed. 2d
562, 95 S. Ct. 2525 (1975)

8

Grand Jury process in the instant case such as peijury or government misconduct.
)
“V ____ _______

r
REASONS FOR GRANTING THE PETITION
Florida Rule of Criminal Procedure Rule 3.851(b)(6)&(i) is
unconstitutional on its face where it forces a Florida death
sentenced defendant to choose between appointed counsel
or discharging counsel and waiving all postconviction
proceedings.

The question presented in this Petition is a Federal question of substance
which involves a death sentenced defendant in Florida being forced to choose
between pursuing his/her postconviction >c\MHSf or waiving all postconviction
proceedings.
Crucial to the exercise of this Court’s certiorari jurisdiction is whether the
controlling issue in the state court case is a federal issue, that is, an issue arising
under the United States Constitution or under federal laws or treaties. But the fact
that a federal question is found in the case doesn’t mean, standing alone, that a
state decision will be reviewed. First, the federal question must be a substantial
question. Second, the federal question must have been properly raised in the state
courts. This is required because the state courts must first be afforded an
opportunity to consider and decide the federal question. Third, even then this court
may not take the case if the state court’s judgment can be sustained on an
independent ground of state law.
9

In this petition, it is clear that the issue presented is a substantial issue of
federal law that arises under the United States Constitution. The issue has properly
been raised in the highest state court and could not and cannot be sustained on any
independent ground of state law. Therefore, the issue here meets all the criteria
necessary for consideration by the Court under its certiorari jurisdiction.
Certiorari has also been granted to determine whether the state court has
properly interpreted, applied, or extended a prior Supreme Court decision in a
given situation. See e.g., Bullington v. Missouri, 451 U.S. 430, 432 (1981)
(certiorari granted on issue whether reasoning of prior Court precedent also applies
to different kind of sentencing procedure); Oregon v. Mathiason, 429 U.S. 492,
493 (1977) (certiorari granted because state court “has read Miranda too broadly”);
Hankerson v. North Carolina, 432 U.S. 233, 240 (1977) (certiorari granted on
issue whether state court correctly declined to give retroactive effect to prior
Supreme Court decision).
As an initial matter, capital defendants do not have a federal constitutional
right to self-representation in their postconviction collateral proceedings, but states
are not precluded from recognizing such a right under their own constitutions. See
Martinez v. Court ofAppeal of California, 528 U.S. 152, 163 (2000).
In this case, Certiorari should be granted to determine whether the state court
has properly interpreted, applied, and/or extended the Supreme Court decision in
10

\

t

Martinez, which was a case dealing with a criminal defendant having no
constitutional right to self-representation on a direct appeal (emphasis added)
In Gordon v. State, 75 So.3d 200 (Fla. 2011) the Florida Supreme Court,
citing to Martinez, interpreted, applied and erroneously extended the holding in
Martinez concluding that death sentenced defendants in Florida do not have a state
constitutional right to proceed pro se in their postconviction collateral appeals.
Based on this decision, rule 3.851 was subsequently amended on January 1st 2015,
to include (b)(6) which states: “[A] defendant who has been sentenced to death
may not represent himself or herself in a capital postconviction proceeding in state
court. The only basis for a defendant to seek to dismiss postconviction counsel in
state court shall be pursuant to statute due to actual conflict or subdivision (i) of
this rule” (emphasis added).
Subdivision (i) of Rule 3.851 states in pertinent part that: “[T]his subdivision
applies only when a defendant seeks both to dismiss pending postconviction
proceedings and to discharge collateral counsel.” Therefore, read together, Rule
3.851(b)(6)&(i) allow a capital defendant to dismiss his current capital counsel for
only two reasons (1) when a actual conflict exists, and (2) when the death
sentenced defendant also waives all postconviction proceedings in their entirety.
(emphasis added).

li

Petitioner asseverates that Florida’s Rule 3.851(b)(6)&(i) pro se prohibition
violates the right to access to the courts, equal protection and due process under
both the United States and Florida Constitutions. Fla. Const. Art. 1 §2 states, “[A]ll
natural persons, female and male alike, are equal before the law and have
inalienable rights, among which are the right to enjoy and defend life and liberty,
to pursue happiness, to be rewarded for industry, and to acquire, possess and
protect property. No person shall be deprived of any right because of race, religion,
national origin, or physical disability.” Fla. Const. Art 1 §9 states in part, “[n]o
person shall be deprived of life, liberty or property without due process of law.”
Fla. Const. Art. 1 §21 states that “[t]he courts shall be open to every person for
redress of any injury, and justice shall be administered without sale, denial or
delay.”
Likewise, the United States Constitution in the Fourteenth Amendment
states; “[A]ll persons bom or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein they
reside. No State shall make or enforce any law which shall abridge the privileges
or immunities of citizens of the United States; nor shall any State deprive any
person of life, liberty, or property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of the laws.'’’’

12

Under the Fourteenth Amendment, "due process" emphasizes fairness
between the state and the individual dealing with the state, regardless of how other
individuals in the same situation may be treated; "equal protection," on the other
hand, emphasizes disparity in treatment by a state between classes of individuals
whose situations are arguably indistinguishable. See Ross v. Moffitt, 417 US 600,
41 L Ed 2d 341, 94 SCT 2437 (1974)
The Fourteenth Amendment is violated by a state procedure which
substantially denies indigent defendants the benefits of an existing system of
appellate review, whether a direct appeal from a criminal conviction or an appeal
from denial of relief in state collateral proceedings; this is so even though the state
has already provided one review on the merits. Lane v. Brown, 372US477,9LEd
2d 892, 83 SCT 768 (1963)
Furthermore, The equal protection clause of the Fourteenth Amendment
requires that a state's criminal appellate system be free of unreasoned distinctions,
and that indigents have an adequate opportunity to present their claims fairly
within the adversary system; the state cannot adopt procedures which leave an
indigent entirely cut off from any appeal at all by virtue of his indigence, or extend
to such indigent merely a meaningless ritual while others in better economic
circumstances have a meaningful appeal-the question being one of degrees, not of
absolutes.
13

With these constitutional provisions in mind, it is clear that a defendant
sentenced to death in the State of Florida has no choice but to concede to court
appointed attorneys being assigned to represent them regardless of appointed
counsel’s skill, knowledge, qualifications or overall effectiveness, or in the
alternative, the death sentenced defendant must waive all postconviction
proceedings and basically agree to be executed without any appellate review
whatsoever.
In Florida, the unreasoned distinction found in the facially unconstitutional
rule is that a criminal defendant sentenced to death does not have the same
opportunity to have all his claims addressed on their merits as non-capital
defendants who are allowed to proceed pro se, in fact, non-capital defendants are
required to proceed pro se until such time that he requests appointment of counsel
and the trial court finds that the defendant meets the requirements under Graham v.
State, 372 So. 2d 1363 (Fla. 1979). (There is no absolute right to the appointment
of counsel in postconviction proceedings.) However, the capital defendant is
forced to except appointed postconviction counsel or waive all postconviction
proceedings.
It is also easy to see that Equal Protection, Due Process and Access to the
Courts all take a back seat to Florida’s desire to streamline the capital defendants
case, regardless of the shortcomings of appointed counsel, and regardless of the
14

fact that serious trial errors are never presented to the court’s for review because
the death sentenced defendant has no chance whatsoever to present any viable
claims pro se because of Florida’s prohibition against pro se filings by death
sentenced defendants. See Gordon v. State, at 203
Florida’s blanket prohibition against pro se motions in capital cases is
catastrophic and as U.S. Supreme Court Justice Alito states in Holland v. Florida,
560 U.S. 631, 130 S.Ct. 2549, 111 L.Ed.2d 130 (2010);
"Petitioner appears to allege that he made reasonable efforts
to terminate counsel due to his inadequate representation and
that such efforts were successfully opposed by the State on the
Perverse grounds that petitioner failed to act through appointed
Counsel... common sense dictates that a litigant cannot be held
Constructively responsible for the conduct of an attorney who
is not Operating as his agent in any meaningful sense of the word,
that is particularly so if the litigants reasonable efforts to terminate
the attorney's representation have been thwarted by forces wholly
beyond petitioner's control." Id.
It's recognized that a Petitioner is not entitled an absolute right to post­
conviction counsel. But this Court recognized in Martel v. Clair, 565 US 648, 132
S.Ct. 1276, 182 L Ed 135 (2012) that due to the unique nature of capital cases
counsel assigned to death penalty case are not a discretionary practice but a right.
id at 1284-85. Being that such effective representation is expected at a minimum
and if that is not the case, Petitioner must be afforded the opportunity to address
the courts pro se with any concerns pertaining to that ineffectiveness.

15

It is not unreasonable to perceive appointed counsel as being blameworthy
or negligent at times. Numerous precedent rulings have come from those very
same scenarios of negligence, misconduct, misadvice and ineffectiveness. Holland
v. Florida; Martel v. Clair; Martinez v. Ryan, 566 U.S. 1, 132 S. Ct. 1309, 182 L.
Ed. 2d 272 (2012); Downs v. McNeil, 520 F.3d 1311 (11th cir. 2008).
It should also be noted that a criminal defendant sentenced to death in
Florida has no avenue available to him for a claim of ineffective assistance of
postconviction counsel. Florida has repeatedly rejected such claims. See Gore v.
State, 24 So. 3d 1, 16 (Fla. 2009) ("Moreover, we find that [Appellant's] claim is in
effect a claim of ineffective assistance of postconviction counsel, and thus is also
without merit."); Gonzalez v. State, 990 So. 2d 1017, 1034 (Fla. 2008) ("To the
extent that [Appellant] is making an ineffective assistance of postconviction
counsel claim, this Court has repeatedly rejected such a claim."); Tompkins v.
State, 994 So. 2d 1072, 1088 (Fla. 2008) (recognizing that ineffective assistance of
postconviction counsel claims are not cognizable); Kokal v. State, 901 So. 2d 766,
777 (Fla. 2005) ("We have repeatedly held that claims of ineffective assistance of
postconviction counsel are not cognizable."); Waterhouse v. State, 792 So. 2d
1176, 1193 (Fla. 2001) ("[T]his Court has repeatedly held that ineffective
assistance of postconviction counsel is not a cognizable claim.").

16

With these principles in mind, it is clear that rules 3.851(b)(6) & (i) are
unconstitutional on their face and deny a death sentenced defendant access to the
courts and any opportunity to have his claims addressed where he has been forced
to accept post-conviction counsel who is either incompetent, does not have his
clients best interests at heart or is not being adequately compensated for his time
and chooses to do the bare minimum. These circumstances cannot stand up to any
kind of scrutiny whether it is the rational basis test, strict scrutiny or any other
standard of review utilized in determining the constitutionality of a rule or statute.
Petitioner understands that a State's procedural rules are of vital importance
to the orderly administration of its criminal courts, However, this watershed rule of
criminal procedure implicates the fundamental fairness and accuracy of the
criminal proceeding where a death sentenced defendant in Florida must rely solely
on the decisions made by court appointed counsel who does not or who will not
raise all the errors necessary in order for the defendant to have a full and fair
appellate review of all his claims.
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully Submitted,

mJ

fcDorfald, DC# 180399
Union Correctional Institution
P.O. Box 1000
Raiford, Florida 32083
17

